No. 20-291
IN THE

Supreme Court of the United States
_________
JAMELL BIRT,
Petitioner,
v.
UNITED STATES,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
________
SUPPLEMENTAL BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI
________
HEIDI R. FREESE
FREDERICK W. ULRICH
TAMMY L. TAYLOR
FEDERAL PUBLIC DEFENDER
MIDDLE DISTRICT OF
PENNSYLVANIA
100 Chestnut St., Suite 306
Harrisburg, PA 17101
(717) 782-2237

ZACHARY C. SCHAUF
Counsel of Record
ELIZABETH B. DEUTSCH
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
zschauf@jenner.com

1
ARGUMENT
Pursuant to this Court’s Rule 15.8, Petitioner Jamell
Birt files this Supplemental Brief to inform the Court of
two recent developments. The first is the Seventh
Circuit’s December 7 decision in United States v.
Hogsett, No. 19-3465 (7th Cir. Dec. 7, 2020),1 which
deepens the split on the Question Presented. The second
is Third Circuit’s December 1 en banc decision in United
States v. Nasir, No. 18-2888, ___ F.3d ____, 2020 WL
7041357 (3d Cir. Dec. 1, 2020), which is relevant to the
government’s argument that this case is an “unsuitable
vehicle.” BIO 26.
I.

The Seventh Circuit’s Hogsett Decision
Makes Clear That The Split Is At Least 53.

In its Brief in Opposition, the government conceded
at least a 5-2 split on the Question Presented, with the
Third, Fifth, Sixth, Tenth, and Eleventh Circuits
agreeing with the government and the First and Fourth
Circuits agreeing with Birt. BIO 22-23, 25; Reply 2. It
disputed Birt’s claim that the Seventh Circuit had sided
with the First and Fourth Circuits. BIO 24.
Hogsett resolves that dispute, squarely holding that
a conviction for “possession with intent to distribute
crack cocaine, in violation of § 841(a)(1), (b)(1)(C), is a
covered oﬀense.” Hogsett, slip op. at 2. Hogsett
expressly agreed with the “First and Fourth Circuits”
and expressly “disagree[d] with the Third Circuit’s
approach” in Birt’s case. Id. at 6-7. Hogsett explained
1 Hogsett is not yet available on Westlaw.

2
that the Fair Sentencing Act “modified” Subparagraph
C by shifting it “for the first time … to cover convictions
involving quantities between 5 grams and 28 grams” of
crack cocaine. Id. at 7-8.
Hogsett thus confirms that the split on the Question
Presented is at least 5-3. That includes at least five
Circuits that have resolved the issue in binding and
published decisions, with those decisions breaking 3-2 in
Birt’s favor (with the First, Fourth, and Seventh
Circuits on one side, and the Third and Eleventh
Circuits on the other). See Reply 2-3 (addressing the
Eleventh Circuit). Indeed, Hogsett further refutes the
government’s already meritless argument that “the
First and Fourth Circuit panel decisions were rendered
without the benefit of the Third Circuit’s analysis in”
Birt. BIO 25; Reply 4-5. The Seventh Circuit had the
“benefit” of that analysis—and rejected it.
Certiorari is richly warranted to address the deep,
entrenched, and important division of authority on an
issue that recurs so frequently.
II.

The Third Circuit’s Nasir Decision
Underscores That Government’s Sole
Vehicle Argument Lacks Merit.

In its Brief in Opposition, the government raised only
one argument for why this case is an “unsuitable vehicle”
to resolve the 5-3 split. BIO 26. That argument was the
following: Even if this Court agrees with Mr. Birt that
he has a “covered offense” and is eligible for relief under
the First Step Act, the government predicts that on
remand Birt is unlikely to “actually receive a sentence
reduction” because he is a “career offender” whose

3
sentence is at the low end of the Guidelines range. BIO
26-27.
Birt’s Reply Brief explained why the
government’s predictions about the outcome on remand
create no genuine vehicle problem and why, in any
event, Birt has every reason to expect substantial relief
on remand. Reply 7-9.
Now, however, even the government’s premise—
that Birt on remand would be treated as a career
offender—is untrue. Birt was deemed a career offender
because he had two prior felony convictions for
“controlled substance offenses,” see U.S. Sentencing
Guidelines § 4B1.1, one of which was for “[a]ttempted
sale of a controlled substance.”
Presentence
Investigation Report ¶¶ 25, 30 (Oct. 22, 2003). But in
Nasir, the en banc Third Circuit overruled its precedent
and held that “inchoate crimes,” including “attempt,”
“are not included in the definition of ‘controlled
substance offenses.’” 2020 WL 7041357, at * 9 (slip op. at
26). Birt calculates that Nasir would reduce his base
offense level from 34 to 26 and his Guidelines range from
210-240 months, see BIO 6, to 92-115 months.
Birt recognizes that on remand the government may
argue that Nasir, because it post-dated Birt’s original
sentencing, should not apply to the calculation of Birt’s
Guidelines range. Birt disagrees with that argument.
See United States v. Easter, 975 F.3d 318, 319, 327 (3d
Cir. 2020) (holding that in a First Step Act proceeding, a
court “must consider anew all of the § 3553(a) factors,”
“includ[ing] post-sentencing developments”). But for
present purposes, this issue only further undercuts the
government’s already meritless claim that the outcome
on remand is foreordained. At minimum, Nasir and the

4
Guidelines reduction it yields would weigh heavily in a
district court’s discretionary determination about
whether to reduce Birt’s sentence. See Br. of Appellee
United States at 22-28, United States v. Murphy, No. 201411 (3d Cir. Aug. 28, 2020), Dkt. 21, 2020 WL 5110432
(arguing that the district court properly declined to
“reconsider [the defendant’s] original designation as a
career offender in light of subsequent changes in” law,
but conceding that the district court did not err by
taking into account the change in law in “var[ing]
downward”: “In other words, while Murphy was still
determined to be a career offender, he was sentenced as
if he wasn’t one.”).
Nasir therefore underscores the lack of merit to the
government’s sole vehicle argument. And it further
demonstrates Birt’s overriding personal stake in
prevailing before this Court and becoming eligible for
relief under the First Step Act.
CONCLUSION
Given the clear 5-3 split, the importance of the
Question Presented, and the patent lack of merit to the
government’s sole vehicle argument, the Court should
grant the Petition.

5
Respectfully submitted,
HEIDI R. FREESE
FREDERICK W. ULRICH
TAMMY L. TAYLOR
FEDERAL PUBLIC DEFENDER
MIDDLE DISTRICT OF
PENNSYLVANIA
100 Chestnut St.
Suite 306
Harrisburg, PA 17101
(717) 782-2237

ZACHARY C. SCHAUF
Counsel of Record
ELIZABETH B. DEUTSCH
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
zschauf@jenner.com

